No. 19-170
In the

Supreme Court of the United States
THE E-COMPANY, A DISSOLVED ILLINOIS
CORPORATION, T&W EDMIER CORP., A DISSOLVED
ILLINOIS CORPORATION, EDMIER CORP., AN
ILLINOIS CORPORATION, K EDMIER & SONS, LLC,
AN ILLINOIS LIMITED LIABILITY CORPORATION,
THOMAS EDMIRE, INDIVIDUALLY, WILLIAM
EDMIER, INDIVIDUALLY, LAKE STREET REALTY,
INC., A DISSOLVED ILLINOIS CORPORATION AND
E &E EQUIPMENT & LEASING, INC. AN ILLINOIS
CORPORATION,
Petitioners,
v.
TRUSTEES OF THE SUBURBAN TEAMSTERS OF
NORTHERN ILLINOIS PENSION FUND,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Seventh Circuit

REPLY BRIEF
Merle L. Royce
Counsel of Record
135 South LaSalle Street, Suite 4000
Chicago, IL 60603
(312) 553-1233
royce4law@gmail.com
Attorney for Petitioners
291297

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . ii
SUMMARY OF ARGUMENT  . . . . . . . . . . . . . . . . . . . . 1
I.

THE DECISION BELOW CONFLICTS
WITH MULLANE  . . . . . . . . . . . . . . . . . . . . . . . . 2

II. T H E T R U S T E E S FA I L E D T O
PR OV I DE PET I T ION ER S W I T H
REASONABLE NOTICE . . . . . . . . . . . . . . . . . . 5
III. SLOTKY IS IRRELEVANT . . . . . . . . . . . . . . . . 7
IV. PETITIONERS WERE INJURED BY
THE LACK OF NOTICE . . . . . . . . . . . . . . . . . . . 8
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

ii
TABLE OF CITED AUTHORITIES
Page
Cases:
Brentwood Financial Corp. v. West Conference
of Teamsters Pension Fund, Inc.
902 F.2d 1456 (9th Cir. 1990) . . . . . . . . . . . . . . . . . . . . 9
Board of Trustees of Trucking Employees of
North Jersey Welfare Fund, Inc.- -Pension
Fund v. Canny,
900 F. Supp. 583 (S.D.N.Y. 1995) . . . . . . . . . . . . . . . . . 9
Central States Sothwest and Southwest Area
Pension Fund v. Slotky,
956 F.2d 1369 (7th Cir. 1992), cert. denied,
511 U.S. 1018 (1994) . . . . . . . . . . . . . . . . . . . . . . . passim
Concrete Pipe and Products of California v.
Construction Labors Pension Trust Fund,
508 U.S. 602 (1993) . . . . . . . . . . . . . . . . . . . . . . . passim
IAM Nat. Pension Fund v.
Clinton Engines Corp.,
825 F.2d 415 (D.C. Cir. 1987) . . . . . . . . . . . . . . . . . . . . 4
ILGWU National Retirement Fund v.
Levy Bros. Fracks, Inc.,
846 F.2d 879 (2d Cir. 1988) . . . . . . . . . . . . . . . . . . . . . . 9

iii
Cited Authorities
Page
IUE AFL-CIO Pension Fund v.
Bartier & Williamson,
788 F.2d 118 (3d Cir. 1986) . . . . . . . . . . . . . . . . . . . . . . 4
Memphis Light, Gas and Water Division v.
Craft,
436 U.S. 1 (1978)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Mullane v. Central Hanover Bank and Trust,
339 U.S. 306 (1950) . . . . . . . . . . . . . . . . . . . . . . . passim
Peralta v. Heights Medical Center,
485 U.S. 80 (1988) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Robbins v. Chapman Trucking, Inc.
866 F.2d 899 (7th Cir. 1988) . . . . . . . . . . . . . . . . . . . . . 4
Sessions v. Dimaya,
584 U.S. ___, 138 S. Ct. 1204 (2018) . . . . . . . . . . . . . . 6
Tulsa Professional Collection Service, Inc. v.
Pope,
485 U.S. 478 (1988)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Statutes:
29 U.S.C. § 1399(b)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
29 U.S.C. § 1401(b)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 4

1
SUMMARY OF ARGUMENT
The Trustees’ Brief In Opposition (“BIO”) illustrates
both how the Seventh Circuit’s decision will be misused
to subvert the Constitutional guarantee of due process
and create other issues. This Court needs to intervene.
At issue is the right of ERISA recipients of a notice
of withdrawal liability under the due process standards
established in Mullane v. Central Hanover Bank and
Trust, 339 U.S. 306 (1950). The Trustees argue due
process notice is not required of them under Concrete
Pipe and Products of California v. Construction Labors
Pension Trust Fund, 508 U.S. 602 (1993) BIO 7-8 (“due
process notice requirements are inapplicable”). This
Court’s ruling in Concrete Pipe involved a vastly-different
issue, whether bias of pension plan administrators was
resolved by the neutrality of the arbitrator. This verbal
sleight of hand by the Trustees illustrates how due process
will disappear.
The Trustees’ other arguments lead to future
problems which will arise from the Seventh Circuit’s
decision and inaction by this Court:
They argue that notice is not required because
the ERISA-required arbitration is not a “final”
determination, even if not requested, BIO 7-8,
despite the language of the Statute and case
law;
They argue that the contents of their so-called
notice were adequate, BIO 7, 10, while not
disputing they misstated the basis of control

2
group liability and failed to specify the right
to arbitration; and
They argue that Seventh Circuit’s decision in
Central States Sothwest and Southwest Area
Pension Fund v. Stolky, 956 F.2d 1369 (7th Cir.
1992), cert. denied, 511 U.S. 1018 (1994) controls
notice merely because 25 years ago certiorari
was denied, BIO 2, 9-10, despite the obvious
flaw that Slotky’s purported standards conflict
with Mullane.
ERISA defendants need notice, reasonable and
complete notice, to protect their statutory rights under
the Statute and their Constitutional right to property.
The Trustees’ arguments demonstrate the serious issues
which will arise from this Court’s inattention.
I.

THE DECISION BELOW CONFLICTS WITH
MULLANE

The Trustees seize on this Court’s conclusions in
Concrete Pipe that plan sponsors merely engage in an
“assessment” of withdrawal liability under ERISA and
that their role is “enforcement” of the Statute, similar to
that of prosecutor or civil plaintiff. (BIO 4-7) They argue
the Court’s holding that the plan sponsor was not subject
to due process standards for bias in Concrete Pipe compels
the conclusion that they are not subject to the due process
requirements of Mullane. (Id. at 7-8)
The issue in Concrete Pipe was bias, whether the
defendant received a fair and impartial determination on
the merits of the withdrawal liability claim. This Court

3
resolved the issue under its existing authorities, which
distinguished between whether a party was preforming a
judicial function or not. It found due process was satisfied
because ERISA provides a neutral adjudicator of the
merits, even if the plan sponsor was biased in assessing
the liability. 508 U.S. 602, 615-619.
Notice presents a different issue, whether the
defendant was provided a reasonable opportunity
to appear and object in matters involving possible
deprivations of life, liberty or property. The issue arises
because Congress delegated the duty of providing notice of
the withdrawal liability claim solely to the plan sponsors,
rather than establishing another vehicle for service of
notice. A neutral adjudicator does not remedy the problem
of a defendant’s loss of his Constitutional rights, when
he is not supplied with sufficient information to appear
and present his objections to the plan sponsor’s claim.
Concrete Pipe therefore does not provide a vehicle for
harmonizing the Seventh Circuit’s decision below with
notice; certainly not with Mullane’s guiding principle that
due process requires “in any proceeding which is to be
accorded finality . . . notice reasonably calculated . . . to
apprise interested parties of the pendency of the action
and afford them an opportunity to present their objections
. . . .” 339 U.S. 306, 314
The Trustees also arg ue that the arbitration
proceeding are not an event “accorded finality” under
Mullane, even if arbitration is not demanded (BIO 7-9)
This arguments ignores the express intent of Congress
in Section 1401(a)(1) of ERISA that “any dispute between
the employer and the plan sponsor . . . shall be resolved
through arbitration.” The plain language of Section 1401

4
(b) (1) leaves no room for a determination of the claim in the
courts when no arbitration is initiated. Instead, it forbids a
court determination under such circumstances, specifying
that “the amounts demanded by the plan sponsor . . . shall
be due and owing.”
Despite this statutory mandate, Trustees submit their
assessment is not final because “the statue requires” them
to seek collection in the courts. (BIO 8) The finality of
the provision is well settled, as the courts have held that
arbitration is mandatory and all defenses are waived by
not requesting it. E.g., Robbins v. Chapman Trucking,
Inc. 866 F.2d 899, 902 (7th Cir. 1988); IUE AFL-CIO
pension Fund v. Bartier & Williamson, 788 F.2d 118,
129-130 (3rd Cir. 1986); IAM Nat. Pension Fund v. Clinton
Engines Corp., 825 F.2d 415, 429 (D.C. Cir. 1987). Also,
the Statute actually reads that the Trustees “may bring”
a collection proceeding. Further, they ignore the usual
rules of statutory construction, including the one requiring
a common sense construction, since in the absence of a
voluntary payment, how is one to collect the obligation
without resort to the courts?
Arbitration, rather than the courts, is the forum which
Congress has chosen for the resolution of withdrawal
liability claims for their finality. The Trustees’ argument
reveals how far the Trustees must stray from the statutory
scheme in their attempt to reconcile the decision below
with Mullane and the danger of inaction by this Court.

5
II. T H E T RU ST EE S FA I L ED T O PROV I DE
PETITIONERS WITH REASONABLE NOTICE
The Trustee do not, and cannot, dispute that their
notice misstated the basis of control group liability
under ERISA (See Petition 6) or that it hid the right to
an arbitration behind a curtain of citations to the section
numbers of the bill in Congress. (Id. at 7) Instead, they
submit that the Seventh Circuit’s decision in Stolky
“provides the proper standard for evaluating the adequacy
of notice” (BIO 2) and that their withdrawal notice
comported with the statutory requirements of ERISA. (Id.
at 7) This is an outrageous statement for several reasons.
First, it does not really address the misstatement
of control group liability or the hiding of the right to
arbitration in a string of citation of legislative cites.
Second, the oblique reference to the statutory remedies
alone would seem to invalidate this Court’s decision in
Memphis Light, Gas and Water Division v. Craft, 436
U.S. 1, 14 (1978).
Third, the only explanation of control group liability
was completely wrong and is indefensible. It equated
liability to “other companies under common control . . .
if those companies have also contributed to the Pension
Fund” (Pet. 6) Since the Notice also stated that only
the “contribution history of those companies should be
considered in calculating withdrawal liability” and none of
their other businesses had contributed, the Edmiers were
misled into believing they had no risk of liability. (Pet. 17)
The importance of this misstatement of the basis
of liability cannot be overlooked. Even accepting
the Trustees’ contention that the Seventh Circuit’s

6
statements in Slotky dictate the adequacy of notice, the
misinformation about control group lability explains the
Edmiers’ failure to appreciate their risk and to ascertain
the available remedies to them. The Edmiers inaction
under the circumstances could have been easily avoided, if
the Trustees had exercised reasonable care in describing
control group liability and simply been forth coming in
advising the Edmiers about arbitration. (Pet. 14-15)
The Seventh Circuit’s opinion leaves one with the
impression, as argued by the Trustees, that the Court
simply did not want to saddle plan sponsors with any
responsibility other than sending out the statutory notice
proscribed by ERISA. However, the issue of due process
cannot be avoided under the notion originally embraced
by the Court that Mullane is only applicable to lawsuits
(Pet. 12-15) nor the Trustees’ notion that Concrete Pipe
excuses plan sponsors from the dictates of Mullane. (Part
I, supra)
It is time for the Court to revisit the issue of the
contents of the notice under the Due Process Clause.
Uncertainty should not be tolerated any longer. The
Court should expressly state that due process requires an
accurate and reasonable description of the basis of liability.
This request is consistent with the historic origins of the
Due Process Clause. As Justice Gorsuch pointed out in his
concurring opinion in Sessions v. Dimaya, 584 U.S. ___,
138 S. Ct. 1204, (2018), common law writs afforded English
subjects “with what legal requirements they were alleged
to have violated and what would be the basis in Court.”
138 S. Ct. at 1225. This has been the law for countless
generations in America and ERISA litigants deserve as
much guidance as English subjects under the common law.

7
III. SLOTKY IS IRRELEVANT
The Trustees argue that this Court denied certiorari
25 years ago in Slotky and nothing has changed. (BIO 9)
The Trustees fail to mention that Slotky was not
treated as substitute for the due process standards of
Mullane back then, but has been now, at the urging of
the Trustees in the District Court.
Technically, the purported standards promulgated in
Slotky are nothing but dicta because the opinion sustained
constructive notice under the facts, distinguishing this
Court’s decision in Tulsa Professional Collection Service,
Inc. v. Pope, 485 U.S. 478 (1988), a case decided under the
Mullane standards. See 956 F.2d 1375. The purported
standards which the Trustees now tout (BIO 2) clash
with those of Mullane which this Court has consistently
adhered for seventy years. (Pet. 20-24)
In short, Slotky was not intended to and does not
provide a reasonable and well thought out substitute for
Mullane. Further, the Trustee are unable to offer any
support for their argument about Slotky except another
mention of Concrete Pipe (BIO 10), an authority never
raised to support Slotky prior to this Petition and which
does not support a departure from Mullane. (See Part I,
supra)
While Slotky expresses a deep suspicion of claims
of a lack of notice, that concern is obviated by Mullane’s
balancing of the interests of the parties and recognition
that the required notice only has to be “reasonably
calculated” to provide recipients effective notice, rather

8
than a guarantee of notice. Mullane’s standards have been
the law and served the Country well. Slotky is irrelevant.
IV. PETITIONERS WERE INJURED BY THE LACK
OF NOTICE
In Peralta v. Heights Medical Center, 485 U.S. 80
(1988), this Court held that invalid notice under Mullane
voids a judgment, regardless of whether a defendant could
show a meritorious defense. (Pet. 24-25) The Trustees
argue that Peralta is inapplicable, since by utilizing the
exception to mandatory arbitration recognized in Slotky,
the District Court had actually adjudicated the issue
of Petitioners’ membership in the control group. They
claim that Petitioners were not deprived of due process,
therefore, because they were not injured. (BIO 11-13)
There are very serious f laws in the Trustees’
argument. First, it depends on their tortured reasoning,
discussed above (Part I supra), that Mullane’s standards
are inapplicable to arbitrations under ERISA, because
of this Court’s description in Concrete Pipe of the role of
plan sponsors under the Statute. (BIO at 11, 13)
Second, it ignores the fact that an adjudication or
review under Slotky is a narrow one concerned only with
control group membership, rather than other issues.
956 F.2d at 1378. The Petitioners’ complaint relates to
the Trustees’ delay in issuing the notice of withdrawal
liability for two years after the last contribution to the
pension plan. During this hiatus the Petitioners spent
$650,000 in an attempt to salvage their corporations. The
failure to provide Petitioners with Constitutional notice
in turn deprived them of the opportunity to prove to an
arbiter that all or part of this expenditure resulted from

9
the Trustees’ failure to abide with Section 1399 (b)(1) of
ERISA. That provision states “as soon as practicable
after an employer’s complete or partial withdrawal, the
plan sponsor shall” issue the notice withdrawal liability.
29 U.S.C. §1399(b)(1). Two years is not “as soon as
practicable.”
The Trustees argue that Section 1399 (b) (1) does
not provide Petitioners with a viable challenge to the
liability claim. (BIO 13-14) None of the cases which they
cite, however, are analogous to this case. In none, did the
defendant point to a discrete injury occurring before the
issuance of the notice of withdrawal; the defendants relied
on only the passage of time. In each case, therefore, courts
correctly found that injury could not be assumed given
the complexity of plan sponsor’s tasks and the general
purpose of the Statute. See, ILGWU National Retirement
Fund v. Levy Bros. Fracks, Inc., 846 F.2d 879, 887 (2nd Cir.
1988); Brentwood Financial Corp. v. West Conference of
Teamsters Pension Fund, Inc. 902 F.2d 1456, 1460 (9 TH
Cir. 1990); Board of Trustees of Trucking Employees
of North Jersey Welfare Fund, Inc.- -Pension Fund v.
Canny, 900 F. Supp. 583, 594-95 (S.D.N.Y. 1995)
Congress used the word “shall” in Section 1399(b)
(1) in describing the plan sponsor’s duty act “as soon
as practicable” after a complete or partial withdrawal.
Notwithstanding its general intend to help pension
funds, Congress certainly expected plan sponsors to
act reasonably and responsibly. When a plan sponsor’s
delay in issuing a notice withdrawal liability causes or
contributes to an injury, as here, the plan sponsor should
not be accorded blind immunity. The delay here was two
years and the cost was $650,000, as much as the liability
claimed by the Trustees.

10
The Trustees implicitly acknowledge as much, arguing
that the withdrawal took place in 2014 and their notice
was sent to Petitioners within a year. (BIO 13) The 2014
withdrawal date was attributed to Petitioners in the
withdrawal notice. See Dkt. # 48-1 at 51. It presented
another issue which was not within the scope of Slotky
and which Petitioners were barred from raising because
of the mandatory character of arbitration under ERISA.
Still, there was evidence in the record which contradicts
the Trustees’claim about the two years.
This case illustrates the wisdom of this Court in
recognizing in Peralta that a violation of Mullane’s
standards warrants “wiping the slate clean.” Petitioners
should not have been deprived of the opportunity to
marshall and present their proof to an arbiter.
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be granted.
Respectfully submitted,
Merle L. Royce
Counsel of Record
135 South LaSalle Street, Suite 4000
Chicago, IL 60603
(312) 553-1233
royce4law@gmail.com
Attorney for Petitioners

